CERTIFICATE OF SERVICE
NO. TBD
Phyllis Davis
Petitioner(s)
v.
Echo Valley Condo. Ass'n. et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the PHYLLIS
DAVIS PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Kay Rivest Butler
STARR, BUTLER, ALEXOPOULOS
20700 Civic Center Dr., Ste. 290
Southfield, MI 48076
(248) 864-4932
kbutler@starrbutler.com
Counsel for Echo Valley Condominium &
Casa Bella Property Management, Inc.

Lucas DeDeus

April 20, 2020
SCP Tracking: Barry-1000 Town Center-Cover White

